E-Mail Address:

2311 Douglas Street
contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214

C@OCKLE

Legal Briefs

Est. 1923,
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
JOHN ROBERT REICHARD,
and ERICKA RAE REICHARD,
Petitioners,
v.
RUSSELL BROWN, Chapter 13 Trustee,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), J certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7277 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of February, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska ) / A Chk
i RENEE J. GOSS o. .

Affiant 40586

 

! My Comm. Exp. September 5, 2023

Notary Public
